                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: A08060036                                                        Page 1of 1


    The complainant1 made several allegations against the subject.2 Of those, only one
    was sufficiently connected to NSF. The allegation under consideration is plagiarism.
    The subject submitted a proposal to NSF.3 Three days later, the subject submitted a
    request to add the complainant a s co-PI saying she was involved in the preparation of
    the proposal and all aspects of the research. Several years later, the co-PI published a
    paper4 in a journal and listed the subject as a co-author of that paper. The subject was
    evidently not previously aware of the paper, as he insisted it be retracted.
    At the end of the grant, the subject submitted a Final Project Report (FPR). In that
    FPR, he copied material from the complainant's retracted paper. The complainant
    alleges the subject's use of material from the paper without her permission and without
    citation is plagiarism.
    We looked at the paper and the FPR. I t is true the subject used significant material
    from the retracted paper (4 figures and several paragraphs of verbatim text). However,
    the subject lists the complainant as co-PI on the FPR and explicitly stated she was
    responsible for the experiments described by the material he copied from the paper. By
    the complainant's own acknowledgment in the paper, the research was related to the
    award, and she must have thought the subject contributed to it because she included
    his name on the paper. Thus, the work under the grant was accurately represented to
    NSF both substantively and in terms of who carried it out. The subject's use of her
    material without permission may not have been especially collegial, but it does not rise
    to the level of research misconduct. Therefore, this case is closed.




       1 (redacted).
         (redacted).
       3 (redacted).
       4 (redacted).
